App.No. __

In The
Supreme Court of the United States

Americans for Prosperity Foundation,
Petitioner,
V.

Xavier Becerra,
in his official capacity as the Attorney General of California,
Respondent.
CERTIFICATE OF SERVICE
The undersigned certifies that he has this day caused a copy of the foregoing
Petitioner's Application to Extend Time to File Petition for a Writ of Certiorari to be
served upon the below-named counsel for respondent by email and by first-class
mail postage pre-paid, and further certifies that all persons required to be served
have been served:
Jose A. Zelidon-Zepeda
Deputy Attorney General-Government Law Section
455 Golden Gate Avenue, Suite 11000
San Francisco, CA 94102
jose.zelidonzepeda@doj.ca.gov

£l,,,,,,_,,,,,/

Derek L. Shaffer
May 28, 2019

L

